DECLARATION OF SERVICE
This is to CERTIFY that the undersigned, in accordant with
Supreme Court Rule 29(5)(c), has delivered by placing in the
United States Post Office at First Class postal rates, 3 copies of
thePetition for Writ of Certiorari

to be delivered toPhilip E. Weiss
Brodsky Micklow Bull & Wiess. LLP
2540 Shelter Island Drive
San Diego, CA 92106
as attorney of record for
GB Capital Holdings, LLC.
Respondant
I declare under the penalty of perjury that the foregoing is true
and correct.
Executed this day- July 20, 2020
JeWrey G. Heston
Peiioner Pro Se
'820 Yukon Terrace
Georgetown, Texas 78633

RECEIVED
JUL 2 7 2020

lllgsJlgf’s1'

